                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

     Case Number: I05050018                                                                     Page 1 of 1



          The National Science Foundation, Office of Inspector General (OIG) initiated this investigation
          based upon a referral from another federal government agency1 conducting an investigation
          regarding alleged misappropriation of grant funds at a university'. It was reported that the
          subject of their investigation, a professor at the University, also had NSF awards. The professor
          was suspected of having diverted monies from an NSF grant to a colleague4 to provide financial
          compensation for helping his spouse5 (obtain an H- 1B visa illegally and giving her a position and
          paying her a salary at the University).

          The University's Office of Audit and Compliance (UAC) conducted an audit and found the
          professor6 had inappropriately charged monies to NSF grants for unallowable costs7. A review of
          the audit report disclosed that the professor misused NSF grant monies to pay for items8 related
          to his colleagues' non-NSF research. The audit report also disclosed that the professor along
          with his colleague had indeed prepared and filed a false H-1B visa petitiong as the emplbyment
          sponsor for a foreign national by using University letterhead. A false H-1B extension was also
          later submitted. The professor and the foreign national were married shortly after she c+e to thk
          U.S.                                                                                     l1      '1
                                                                                                     /I       'I
                                                                                                              1
                                                                                                              I
           The University reported that the professor resigned1' and his colleague received disciplihary      1
           action1'. This matter was referred to a U.S. Attorney's Office for prosecutorial consideiation an!
                                                                                                    II
           the matter was declined.

          NSF has received a full refundt2from the University for the Unallowable Costs1 misappropriated
          funds in this matter. There are no further leads to pursue and all issues have been resolved.


11         Accordingly, this case is closed.




 NSF OIG Form 2 (1 1/02)
